No. 19-278

 

 

IN THE

Supreme Court of the Anited States
PFIZER, INC. AND GREENSTONE LLC,
Petitioners,
Vv.
SUPERIOR COURT OF CALIFORNIA FOR THE COUNTY OF LOS ANGELES e¢ al.,
Respondents.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this 3
day of October, 2019, in accordance with U.S. Supreme Court Rule 29.3, three (3) copies
of the foregoing BRIEF OF THE AMERICAN TORT REFORM ASSOCIATION et
al. IN SUPPORT OF PETITIONERS by placing said copies in the U.S. mail, first
class postage prepaid, addressed as listed below.

Michael Hugh McGinley Jules Burton LeBlanc IV
Dechert LLP Baron & Budd PC

1900 K Street, NW 2600 CitiPlace
Washington, DC 20006 Suite 400

(202) 261-3300 Baton Rouge, LA 70808
michael.meginley@dechert.com (225) 927-5441

avezinat@baronbudd.com

 

ON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 347-8203

District of Columbia: SS

Subscribed and Sworn to before me this 3" day of October, 2019.

KAREN PIERANGELI
NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2020.

 

 

 

 

 
